IN THE SUPREME COURT OF THE UNITED STATES

No. 20-490
DAMIEN FREEMAN,
Petitioner,
Ye
LYNEAL WAINWRIGHT,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Reply Brief for
Petitioner contains 2,865 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 8, 2020.

Quer ALylp
Rishi R. Gupta
Covington & Burling LLP
One CityCenter

850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000

Counsel for Petitioner Damien Freeman
